HHS/OIG-Audit--"Review of the Network Design Group's Full and Partial Denials of Medical Assistance Claims That Have Not Been Recovered by New York State, (A-02-93-01007)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Network Design Group's Full and Partial Denials of Medical Assistance Claims That Have Not Been Recovered
by New York State," (A-02-93-01007)
July 21, 1993
Complete
Text of Report is available in PDF format (1.43 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that New York did not take action to recoup overpayments ($1.7 million Federal share)
identified by the Network Design Group (NDG), a peer review organization contracted with by New York State to review Medicaid
claims. We recommended a financial adjustment and that New York ensure that all overpayments identified by peer review
organizations are recovered timely and the Federal share refunded. Regional Health Care Financing Administration officials
generally concurred with our findings and recommendations.